No.

IN THE

Supreme (Unurt af Hye

States

Tomas Rodriguez Infante,

Petitioner,
v.

Michael Martel, Warden, and
California Department of Corrections and Rehabilitation,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
CERTIFICATE PURSUANT TO RULE 33
Pursuant to Rule 33.2, I hereby certify that this petition is less than 40

pages, and therefore complies with the page limit set out in Rule 33. This
brief was prepared in 13-point Century Schoolbook font.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender
DATED: August 3, 2020

MARK R. DROZDOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

1

